ASSESSMENT REPORT

              REDACTED VERSION
      Assessment of NRC’s Wireless Devices

        OIG-10-A-18 September 17, 2010




All publicly available OIG reports are accessible through
                    NRC’s Web site at:
http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                            SUMMARY
               ASSESSMENT OF NRC’S WIRELESS DEVICES




          Wireless devices, services, and technologies are commonplace in all
          aspects of our lives and offer potential cost-savings and convenience over
          wired solutions. Wireless devices include any electronic device that can
          communicate with other devices without being physically attached to those
          devices. Most wireless devices communicate through radio frequencies.
          A wireless service provides access to services such as telephone, e-mail,
          calendaring, and messaging using wireless devices. Wireless
          technologies include mobile equipment, such as cellular telephones,
          Blackberries, and wireless networking.




          The objective of this assessment was to determine if NRC’s wireless
          devices met required operational capabilities and security requirements.
          Southwest Research Institute’s assessment focused on two wireless
          systems. In addition, a top-level overview of Bluetooth communication
          was conducted.




          The assessment found that the overall policy framework that supports
          both wireless devices should be reviewed and revised. The existing policy
          framework is complex and confusing, and both gaps and overlaps exist.
          The use of wireless devices at NRC is a recent occurrence, but the
          Management Directives and other policies and procedures need to be
          updated to reflect the current use of wireless devices.

          In addition, the assessment identified other technical and procedural
          changes needed to both wireless systems. Because these changes could
          provide adversaries with an attack plan, specifics cannot be presented in
          this publicly released document.


THE FULL REPORT CONTAINS SECURITY RELATED INFORMATION THAT IS
NOT RELEASED TO THE PUBLIC. FOR ADDITIONAL INFORMATION, PLEASE
CONTACT THE OFFICE OF THE INSPECTOR GENERAL AT 301-415-5915.
